G. GARY TYACK

FRANKLIN COUNTY PROSECUTING ATTORNEY

 

 

August 26, 2021
VIA US MAIL AND E-FILE

Scott S. Harris

Clerk of Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543-0001

Re: In Re Gracie E. McBroom v. HR Director Franklin County Board of Elections
Letter Advising No Response - No. 21-165

Dear Mr. Harris
Pursuant to Supreme Court Rule 20.3(b), Respondent HR Director Franklin County Board
of Elections advises the Clerk and all other parties that the Respondent does not wish to respond

to the Emergency Petition for Writ of Mandamus in /n Re Gracie FE. McBroom v. HR Director
Franklin County Board of Elections, Docket No. 21-165.

Respectfully submitted,
Zo

Thomas W. Ellis
Counsel for Respondent

Ce: Gracie E. McBroom

CIVIL DIVISION + 373 SOUTH HIGH STREET + COLUMBUS, OHIO + 43215-6318
(614) 525-3520 + FAX (614) 525-6012
